DISTRICT OF COLUMBIA COURT OF APPEALS
No. 16-CV-444
DR. MARCUS TURNER, SR., ET AL., APPELLANTS,
V.

ALVA C. HINES, ET AL., APPELLEES.

JAN 16 2019

Appeal from the Superior Court
of the District of Columbia
(CAB-1406-15)
(Hon. Robert D. Okun, Trial Judge)
(Argued May 10, 2017

Decided January 16, 2019)

Before GLICKMAN and EASTERLY, Associate Judges, and FARRELL, Senior
Judge.
MEMORANDUM OPINION AND JUDGMENT
PER CURIAM: Appellees, professed members of Beulah Baptist Church of
Deanwood Heights, sued appellants – Dr. Marcus Turner, Sr., the Church’s Pastor;
Russell Moore, Jr., the former Chair of the Church’s Trustee Board; and Beulah
Community Improvement Corporation (BCIC), a non-profit secular entity affiliated
with the Church – in Superior Court for breach of fiduciary duties, conversion, unjust
enrichment, and civil conspiracy. This appeal is from the Superior Court’s denial of
appellants’ motion to dismiss the complaint on standing and First Amendment
grounds.1 Appellants claim that (1) this court has jurisdiction to review that denial
in this interlocutory appeal under the collateral order doctrine; (2) appellees lack
standing to maintain their suit because they are not bona fide members of the Church;
and (3) even taking all the factual allegations of the complaint as true, the suit must
The court dismissed the claims against appellant Turner on other grounds,
namely res judicata, but it did not enter a separate final judgment of dismissal for
him and he remains a defendant in the case. The dismissal of the complaint against
Turner is not the subject of the present appeal.
1

be dismissed at this juncture under the First Amendment ecclesiastical abstention
doctrine as a matter of law. Appellees dispute each of those claims.
We conclude that we have jurisdiction at this time to review the Superior
Court’s rejection of appellants’ First Amendment immunity claim, but not its
rejection of their standing argument. We further conclude that, at this early stage of
the proceedings, the ecclesiastical abstention doctrine does not require dismissal of
the suit, because it appears that appellants’ liability may be adjudicated under neutral
principles of tort law without infringing on appellants’ claimed First Amendment
immunity.
I. The Allegations of the Amended Complaint
The amended complaint is brought by eighteen individuals who allege that
they are bona fide members in good standing of Beulah Baptist Church and
beneficiaries of the property held by the Church in trust for its members. 2 Their
complaint charges that appellant Turner, with the assistance of appellants Moore and
BCIC, 3 abused that trust by engaging for over a decade in a series of unauthorized,
wasteful, and improper transactions involving Church funds and real property. The
complaint alleges the following as the main elements of this charge.
(1) Between 2003 and 2008, Turner and Moore, purporting to act on behalf
of the Church, purchased at least seven properties in the Deanwood Heights
neighborhood and entered into at least five loan agreements encumbering the
Church’s real property. The last of these loans enabled BCIC to borrow $3.23
With their opposition to appellants’ motion to dismiss on standing grounds,
each appellee submitted a declaration under penalty of perjury that he or she is on
the Church’s membership roll, has a membership number provided by the Church,
and serves (or has served) on Church ministries open only to Church members.
2

The complaint describes BCIC as a nonprofit corporation “created to help
raise funds and assist the Church in its work to improve the Deanwood Heights
community” in various ways. Unlike the Church itself, BCIC can receive
government funding because it is a secular organization. The complaint further
alleges that (as shown in the allegations we summarize above) BCIC is controlled
by Turner and is “Turner’s alter ego even more than it is the Church’s.”
3

million in July 2008 (apparently to extinguish the remaining accumulated debt on
the previous loans) with the Church as guarantor. This transaction also involved an
unauthorized and secret conveyance of a valuable ¾-acre lot from the Church to
BCIC for no consideration in return. In violation of the 1997 Church Constitution
then in effect, Turner and Moore allegedly engineered these property and loan
transactions without the knowledge and approval of the Church’s Trustee Board (or
its membership in general). 4 In fact, throughout the period, Turner falsely
represented that the Church was debt-free and that the property transactions did not
encumber the Church’s property. The truth was revealed in 2014 when a notice
appeared in The Washington Post that Church property was to be auctioned off in a
foreclosure sale. To prevent this, Turner was forced to sell off certain Church
properties, including the lot the Church had conveyed to BCIC for free.
(2) With the help of Moore and a few other confederates, Turner also secretly
and repeatedly withdrew funds from the Church operating account for his own
personal benefit. Turner allegedly
charged to the Church credit card meals, fuel for his
personal car, dry cleaning, vacations, personal lawn care
and exorbitant cell phone bills, which included home
internet and cable television services. He had the Church
pay for his own continuing education, his wife’s education
and his son’s tuition, including, for example, $14,000 in
tuition payments in 2008. He had the Church cover
personal tax liabilities, including $3,000 in 2008.
The Church’s 1997 Constitution is incorporated in the complaint by
reference. Under that Constitution, the duty “[t]o review and/or sign all contracts
and legal documents on behalf of the Church” and “[t]o have responsibility for the
acquisition . . . of all church property” was assigned to the Trustee Board. The
Constitution did not assign similar duties or powers to the Pastor. The Constitution
also assigned financial oversight and similar responsibilities to other boards,
committees, and officers of the Church. The Board of Deacons, for example, had
the duty to “[k]now at all times” the financial condition of the Church, and a separate
Budget-Finance Committee bore responsibility for preparing the Church’s annual
budget for submission to the entire membership. The Constitution required the
Church’s Pastor (Turner), among other things, to “seek the advice of the official
boards regarding recommendations for policy and program changes.”
4

Moreover, he had the Church establish and pay premiums
on life insurance policies for both him and his wife, and
had the Church pay his wife $500 on at least two occasions
for delivering speeches at the Church.
All of these expenditures were unauthorized; the Church Constitution vested
responsibility for the Church’s property and finances, including Turner’s salary, in
the Trustee Board and other Church bodies, and they allegedly did not know of or
approve Turner’s use of Church funds to pay his personal expenses. 5
(3) When Turner was having personal financial difficulties in 2008, he
arranged with Moore for two secret payments from the Church to him in the total
amount of $75,000 out of its general reserve fund. These payments were supposedly
for services Turner had performed as a real estate “consultant” to the Church and
BCIC and in securing government grants to acquire property for BCIC. There had
been no contract or agreement to pay Turner for such services and the amount of the
payments was arbitrary. Again, in violation of the Church Constitution, these
payments were made without the knowledge and approval of the Trustee Board (or
the Church membership).
(4) In 2011, Turner, aided by Moore, arranged for the Church to borrow
$900,000, secured by Church property, ostensibly to pay for renovations of Church
facilities (though the renovation contracts, had they been fully performed, would
have totaled only $380,000). Much of that money is unaccounted for; the complaint
alleges on information and belief that Turner drew down the funds and used them
for “purposes unrelated to the mission of the Church.” The Church paid only
$162,500 in total for the (partial) renovation work that was performed, and Turner
claimed to the contractor that the Church could not pay the rest of what it owed him,
which amounted at the time to only $57,500. Instead, Turner borrowed $105,000
from the contractor, telling him that the Church and BCIC needed it to help pay off
the July 2008 loan. Turner thereafter refused to repay the contractor and claimed
that his loan had been a donation. The contractor sued the Church, BCIC, and Turner
for the money he was owed; the Church incurred legal fees and expended funds to
settle the lawsuit.
Under the Constitution, the Board of Deacons was charged with
“[i]nsur[ing] that the Pastor is paid a salary which is fair to him and the Church,”
and the Trustee Board with “pay[ing] all salaries and debts incurred by the Church
and such other disbursements as the Church deems necessary.”
5

The complaint further alleges that as a result of Turner’s financial
mismanagement, self-dealing, continuing concealment of financial arrangements,
and refusal to disclose information about the Church’s financial condition to its
membership, the Church is in financial distress and can no longer maintain its
facilities, fully fund positions and scholarships, or carry on other basic activities as
it had been doing.
Based primarily on the foregoing activities, the complaint charges Turner and
Moore with breach of fiduciary duty, unlawful conversion of Church funds, and
unjust enrichment from the diversion of those funds to pay Turner’s personal
expenses. The complaint also charges Turner, Moore, and BCIC with civil
conspiracy to commit those torts. The relief sought includes an accounting to
determine how much Turner owes the Church and an award of monetary damages.
II. Appellate Jurisdiction
The denial of a motion to dismiss a complaint usually is not immediately
appealable because it does not finally dispose of the case. 6 We have held, however,
that where the motion to dismiss asserts a claim of absolute ecclesiastical immunity
from suit under the First Amendment, the denial of that claim is appealable under
the collateral order doctrine if the immunity turns on an issue of law rather than on
a factual dispute.7 Therefore, we have jurisdiction to review the ruling on appeal to
the limited extent of determining whether appellants “are entitled to the First
Amendment immunity based on the allegations in the complaint,” 8 or whether the
litigation can proceed under the assumption that those allegations are true.
We reach a different conclusion as to our jurisdiction to review the Superior
Court’s threshold ruling that appellees have standing to maintain their suit based on
6

Heard v. Johnson, 810 A.2d 871, 876 (D.C. 2002).

Id. at 877; Bible Way Church of Our Lord Jesus Christ of the Apostolic
Faith of Washington, D.C. v. Beards, 680 A.2d 419, 426 (D.C. 1996); United
Methodist Church v. White, 571 A.2d 790, 792-93 (D.C. 1990).
7

8

Brief of Appellants at 16.

their declarations stating they are enrolled members of the Church in good standing.9
To be amenable to immediate interlocutory review under the collateral order
doctrine, a trial court ruling must satisfy three requirements: “(1) it must
conclusively determine a disputed question of law, (2) it must resolve an important
issue that is separate from the merits of the case, and (3) it must be effectively
unreviewable on appeal from a final judgment.” 10 The ruling on appellees’ standing
did not satisfy either the first or the third of these requirements. It was not a
“conclusive” determination because there remains a genuine factual dispute over
appellees’ standing.11 And unlike a ruling denying a claim of immunity as a matter
of law, a ruling on standing is not “effectively unreviewable” on appeal from a final
judgment. 12 Appellants argue that this particular ruling is effectively unreviewable
after a final judgment has been rendered because litigating the issue will
impermissibly involve the court in second-guessing the Church’s religious decisions

“[A]s a general principle, bona fide members of a church have standing to
bring suits as trust beneficiaries when there is a dispute over the use or disposition
of church property.” Mount Jezreel Christians Without a Home v. Board of Trustees
of Mt. Jezreel Baptist Church, 582 A.2d 237, 239 (D.C. 1990). Bona fide
membership can be established based on the church’s membership roll and financial
records. Id. at 240-41. See also Williams v. Board of Trustees of Mt. Jezreel Baptist
Church, 589 A.2d 901, 908 (D.C. 1991).
9

McNair Builders, Inc. v. Taylor, 3 A.3d 1132, 1135 (D.C. 2010) (internal
quotation marks omitted).
10

While appellees filed declarations stating they were on the Church’s
membership roll, had membership numbers, and were in the Church’s ministries,
Turner countered with a declaration asserting the opposite. Ultimately, the Superior
Court will need to resolve this factual dispute, presumably after discovery in which
the membership roll and other pertinent documents are produced (if they are
available). See Grayson v. AT&T Corp., 15 A.3d 219, 245-46 (D.C. 2011) (en banc)
(explaining that the standing inquiry may be different depending on the stage of the
litigation).
11

See, e.g., Summit Med. Assocs., P.C. v. Pryor, 180 F.3d 1326, 1334-35
(11th Cir. 1999) (citing cases). See also Freyre v. Chronister, 2018 U.S. App.
LEXIS 35141 *1, *5-6 (11th Cir. Dec. 14, 2018).
12

concerning its membership. 13 We are not persuaded by this assertion. The court
may need to determine whether and when the Church admitted or excluded appellees
from membership, but not, so far as now appears, why the Church did so. 14
III. Ecclesiastical Abstention
Appellants claim to be immune from suit because, generally speaking, the
First Amendment requires civil courts to abstain from disputes over “matters of
church government as well as those of faith and doctrine.” 15 But this principle “does
not mean . . . that churches [or their ecclesiastical personnel, e.g., ministers] are
above the law or that there can never be a civil court review of a church action.”16
On the contrary,

Appellants note that the Church Constitution makes “faith in the Lord Jesus
Christ” a qualification for membership.
13

See, e.g., Jackson v. George, 146 A.3d 405, 416-18 (D.C. 2016) (holding
that dispute over purported termination of church memberships was justiciable
where the issue turned on the authority of the decision makers without requiring
resolution of any religious questions; “[c]ontrary to appellants’ assertions, Judge
Nash was not required to determine whether appellees . . . or anyone else had
‘accepted Jesus Christ’”).
14

Hosanna-Tabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S.
171, 186 (2012) (quoting Kedroff v. Saint Nicholas Cathedral of Russian Orthodox
Church in North America, 344 U.S. 94, 116 (1952)). See also, e.g., Meshel v. Ohev
Shalom Talmud Torah, 869 A.2d 343, 353-54 (D.C. 2005); Heard, 810 A.2d at 879.
In Hosanna-Tabor, the Court clarified that this doctrine of abstention “operates as
an affirmative defense to an otherwise cognizable claim, not [as] a jurisdictional
bar.” 565 U.S. at 195 n.4.
15

Heard, 810 A.2d at 879 (brackets added). See also Family Fed’n for World
Peace v. Moon, 129 A.3d 234, 249 (D.C. 2015) (“In sum, the mere fact that the issue
before the court involves a church or religious entity does not thereby bar access to
our courts.”).
16

civil courts may resolve disputes involving religious
organizations as long as the courts employ neutral
principles of law and their decisions are not premised upon
their consideration of doctrinal matters, whether the ritual
and liturgy of worship or the tenets of faith. . . . Even
where the civil courts must examine religious documents
in reaching their decisions, the “neutral principles”
approach avoids prohibited entanglement in questions of
religious doctrine, polity, and practice by relying
exclusively upon objective, well-established concepts of
law that are familiar to lawyers and judges.[17]
Disputes over church property are “especially” amenable to resolution by civil
courts employing neutral principles of law applicable in all property disputes.18
“[I]n determining whether the adjudication of an action would require a civil
court to stray impermissibly into ecclesiastical matters, we look not at the label
placed on the action but at the actual issues the court has been asked to decide.”19
As set forth in the complaint, the main issues here appear to be entirely secular and
to be governed entirely by neutral principles of law. They are not issues of religious
doctrine, church governance, or the like; unlike in some past cases this court has
seen, they do not involve review of policy matters reserved to ecclesiastical
judgment. They are simply issues of the permissible use or disposition of Church
property; they primarily boil down to whether Turner, with Moore’s and BCIC’s
assistance, misappropriated the Church’s money for his own use and encumbered or
disposed of the Church’s real estate without the authorization required by the Church
Constitution. The resultant causes of action – breach of fiduciary duty, conversion,
unjust enrichment, and civil conspiracy to commit those torts – all “rely upon

Meshel, 869 A.2d at 354 (quoting Jones v. Wolf, 443 U.S. 595, 602, 603
(1979) (quotation marks omitted)).
17

18

Family Fed’n, 129 A.3d at 248. See also Heard, 810 A.2d at 880.

19

Meshel, 869 A.2d at 356.

doctrines basic to our legal system” and are resolved by applying familiar, welldeveloped, neutral principles of law. 20
The causes of action in this case are justiciable notwithstanding that they rely
on provisions of the Church’s Constitution specifying the allocation of responsibility
for and authority over Church property, contracts, and financial matters.21 As we
explained in Bible Way Church, a civil court can enforce standards of behavior that
a church has formally adopted.22 And a church’s constitution is a contractual
agreement that a court may construe using neutral principles of law, such as “the
‘objective law’ of contracts, under which the written language embodying the terms
of an agreement governs the rights and liabilities of the parties.” 23 In this case, for
instance, the court may have to construe and apply Article 5, Section 3 (c)(2) of the
Constitution, which specified that it was the Trustee Board’s duty “[t]o review
and/or sign all contracts and legal documents on behalf of the Church . . . .” We see
no reason why this task (or the construction and application of any other provision
of the Constitution pertinent to this case) should entangle the court in any questions
of religious doctrine, polity, or practice. That some provisions of the Constitution
contain religious terminology should not give rise to such impermissible
entanglement in the absence of a “material dispute between the parties” over the

Family Fed’n, 129 A.3d at 249. In contrast, in Bible Way Church, supra,
footnote 7, and Kelsey v. Ray, 719 A.2d 1248 (D.C. 1998), we held that the plaintiffs
had failed to allege the applicability of neutral accounting and reporting criteria that
were clear and objective enough to allow a court to examine a church’s financial
practices without involving itself in policy determinations committed to
ecclesiastical judgment. See Kelsey, 719 A.2d at 1249, 1252-53; Bible Way Church,
680 A.2d at 428-29.
20

21

See footnotes 4 and 5, supra.

680 A.2d at 428 (“If the church has, in fact, adopted clear, objective
accounting and reporting standards that eliminate all doctrinal decision-making in
their enforcement, then arguably a civil court can apply them – much as a court can
resolve secular disputes over church property – because the church itself has
obviated all First Amendment concerns.”).
22

23

Meshel, 869 A.2d at 361.

meaning of the religious language. 24 The existence of such a material dispute in this
case has not been shown and is not apparent.25
Thus, at this early stage of the case, “it would appear that this dispute is
susceptible to resolution by ‘neutral principles of law’ not requiring any forbidden
inquiry into matters barred by the First Amendment.” 26 We therefore hold that the
litigation may proceed, with the understanding that “going forward, if it becomes
apparent to the trial court that this dispute does in fact turn on matters of doctrinal
interpretation or church governance, the trial court may grant summary judgment to
avoid ‘excessive entanglement with religion.’” 27
Id. at 354. In Meshel, the court construed the corporate bylaws of an
Orthodox Jewish congregation to determine that the parties had an enforceable
agreement to arbitrate their dispute by presenting it to a “Beth Din.” The court held
that it could make this determination applying neutral principles of contract
interpretation because there was no material dispute between the parties as to the
meaning of that or other religious terms in the bylaws. See also id. at 357 (“It is
undeniable that ‘Beth Din,’ ‘Din Torah,’ ‘Orthodox rabbi,’ and ‘Halacha’ are
religious terms that lend the case a certain surface feel of ecclesiastical content.
When we look beneath the surface, however, we see an action to compel arbitration
that turns not on ecclesiastical matters but on questions of contract interpretation that
can be answered exclusively through the objective application of well-established,
neutral principles of law.”).
24

Appellants appear to rely on a provision of the 1997 Constitution, Article
IV, Section 1, stating that the Pastor of the Church “shall serve as overseer, leader,
advisor, and teacher” (emphasis added). Assuming arguendo that “overseer” is a
religious term (as appellants contend it is), it is not clear that the parties disagree
over its meaning or that, if they do, the dispute is either unresolvable by a court or
material to the issues raised by the complaint. Appellants do not seem to claim, for
example, that Turner’s status as “overseer” entitled him to misappropriate Church
funds for his own use (in fact, they disavow any such claim in their appellate
briefing) or override provisions of the Constitution committing contractual and other
matters to the Trustee Board.
25

26
27

Family Fed’n, 129 A.3d at 249.

Second Episcopal Dist. African Methodist Episcopal Church v. Prioleau,
49 A.3d 812, 818 (D.C. 2012).

Accordingly, we hereby affirm the Superior Court’s denial of appellants’
motion to dismiss the amended complaint on First Amendment and standing grounds
and remand the case for further proceedings.

Copies to:
Honorable Robert D. Okun
Director, Civil Division
Seth Rosenthal, Esquire
Calvin R. Nelson, Esquire
Venable LLP
575 7th Street, NW
Washington, DC 20004
Copies e-served to:
Joseph G. Cosby, Esquire
Bradford S. Bernstein, Esquire
James A. Sullivan, Esquire
Joshua Counts Cumby, Esquire

